Case No.
IN THE
SUPREME COURT OF THE UNITED STATES

HEATHER and PEARL SINGLETON,
Petitioners,
v.
SUPREME COURT CHIEF JUSTICE
MARY E. FAIRHURST, et al.,
Respondents.
On Petition for Writ of Certiorari from the
Washington State Supreme Court.
PETITION FOR WRIT OF CERTIORARI
SCOTT E. STAFNE
Counsel of Record
239 N. Olympic Avenue
Arlington, WA 98223
TEL: (360) 403-8700
Scott@Stafnelaw.com
July 30, 2019

i.

QUESTIONS PRESENTED
Whether the Chief Justice of the Washington Supreme
Court in order to ensure “maximum efficiency” of
Washington courts pursuant to Wash. Rev. Code
2.56.030(3), and (4), can consistent with the Supremacy
Clause and the Fourteenth Amendment of the US Constitution, issue an order authorizing a pro tem judge
to exercise judicial power to adjudicate a specific case
to its conclusion without having to consider litigants’
challenges that the pro tem judge is constitutionally
prohibited from doing so under this Court’s Due Process Clause precedents.
Whether under the Supremacy Clause and the Fourteenth Amendment a pro tem judge in Washington
State who has been authorized by the Chief Justice of
the Washington Supreme Court to adjudicate a case to
its conclusion, and who has a legal duty under Washington law to comply with this direction pursuant to
Wash. Rev. Code 2.56.040 must still consider recusing
herself based on her JUDGMENT as set forth on the
record where litigants challenge she is biased under
this Court’s due process precedents.

ii.

PARTIES TO THE PROCEEDINGS
Petitioners Heather and Pearl Singleton are residents of the State of Washington.
Respondent Mary Fairhurst is the Chief Justice of
the Washington Supreme Court. Respondent Jeanette
Dalton is an elected superior court judge of Kitsap
County Superior Court who was authorized by the
Chief Justice to act as a pro tempore judge of the Mason
County Superior Court to adjudicate the Singletons’
civil action, including their claim against Thurston
County superior court judges, to the conclusion of that
case.

iii.

CORPORATE DISCLOSURE
All parties are natural citizens. No corporation or
business entities were parties to this original action
before the Washington Supreme Court.

iv.

TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDING .................... ii
CORPORATE DISCLOSURE ............................ iii
TABLE OF CONTENTS ...................................... iv
TABLE OF APPENDICES ................................... v
TABLE OF AUTHORITIES ................................ vi
OPINIONS BELOW .............................................. 1
JURISDICTION ..................................................... 2
PETITION FOR WRIT OF CERTIORARI ........ 3
CONSTITUTIONAL PROVISIONS INVOLVED
.................................................................................. 4
WASHINGTON STATUTORY PROVISIONS ... 5
STATEMENT OF THE CASE .............................. 7
ARGUMENT ......................................................... 43
REASON FOR GRANTING THE PETITION 43
CONCLUSION ..................................................... 55
APPENDIX A........................................................ 1a
APPENDIX B ....................................................... 3a
APPENDIX C ..................................................... 10a

v.

TABLE OF APPENDICES

APPENDIX

TITLE

PAGE
NUMBER

A.

Supreme Court of
Washington State
Order

1a

B.

Supreme Court of
Washington State
Ruling Dismissing
Original Action

2a–7a

C.

Supreme Court of
Washington State
Certificate of
Finality

8a–9a

vi.
TABLE OF AUTHORITIES
FEDERAL CASES
Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 106 S.Ct.
1580, 89 L. Ed. 2d 823 (1986). ............................ 15
Camara v. Municipal Court of San Francisco, 387
U.S. 523, 87 S. Ct. 1727, 18 L. Ed. 930
(1967) ................................................................ 43, 44
Caperton v. A.T. Massey Coal., 556 U.S. 868, 129 S.
Ct. 2252, 173 L Ed. 2d 1208 (2009) ......... 47,48, 51
In re Murchison, 349 U.S. 133, 75 S. Ct. 623, 99 L Ed.
942 (1955) .............................................47,48,49, 51
Marshall v. Jerrico, Inc., 446 U.S. 238, 100 S.Ct. 1610,
64 L. Ed. 2d 182 (1980) .......................46,47, 49, 50
Offut v. United States, 348 U.S. 11, 75 S. Ct. 11, 99 L.
Ed. 11 (1954) ....................................................... 47
Rippo v. Baker, 137 S. Ct. 905, 197 L. Ed. 2d 167
(2017) ............................................................. 44, 51
United States v. Bond, 564 U.S. 211, 1351 S. Ct. 135,
(2011). ............................................................. 45,51
United States v. Lanier, 520 U.S. 259, 117 S. Ct.
1219, 137 L. Ed. 2d 432 (1997) .......................... 45
United States v. Will, 449 U.S. 200, 101 S. Ct. 471, 66
L. Ed. 2d 392 (1980). ...................................... 42,46

vii.
Williams v. Pennsylvania 579 U. S. ___, ___, 136 S. Ct.
1899 (2016) .................................................... 48, 51
Withrow v. Larkin, 421 U.S. 35, 95 S. Ct. 1456, 43 L
Ed.2d 712 (1975) ................................................. 48
STATE CASES

Bode v. Superior Court, 46 Wash. 2d 860, 285 P.2d
877(1955) ............................................................. 26
In re Marriage of Major, 71 Wash. App. 531, 536, 859
P.2d 1262 (1993) ................................................. 32
Larse v. Campbell, 186 Wash. 319, 57 P.2d 1246
(1936) ................................................................... 17
Marine Power & Equip. Co. v. State, 102 Wash. 2d
457, 687 P.2d 202 (1984). ................................... 26
McMullen & Co. v. Croft, 96 Wash. 275, 280, 164 P.
930 (1917) ............................................................ 17
Nat'l Bank of Wash. v. McCrillis, 15 Wash. 2d 345,
130 P.2d 901 (1942) ...................................... 28, 29
State ex rel. Martin v. Superior Court, 101 Wash. 81,
94, 172 P. 257 (1918). ......................................... 32
U. S. CONSTITUTION
US Const. art VI, Clause 2 ................... 4, 27, 45, 46, 47
US Const. amend. XIV, § 1 ......................... 4, 44, 45, 50

viii.
WASHINGTON CONSTITUTION
Wash. Const. art. IV, § 7 .......................... 24, 26, 39, 42
UNITED STATES STATUTES
28 U.S.C. § 1257(a) ................................................ 2, 43
WASHINGTON STATUTES
Wash. Rev. Code 2.08.180....................................... 30, 39
Wash. Rev. Code 2.08.190..................................... 29, 39
Wash. Rev. Code 2.28.030............................... 25, 31, 33
Wash. Rev. Code 2.56.030(3) .............................. passim
Wash. Rev. Code 2.56.040................................... passim
Wash. Rev. Code 4.12.040..................................... 19, 24
Wash. Rev. Code 4.12.050............................... 19, 24, 26
Wash. Rev. Code 36.10.050......................................... 14
Wash. Rev. Code Chapter 65.08 ................................... 7
Wash. Rev. Code 65.08.050........................................... 8
Wash. Rev. Code 65.08.140........................................... 8
Wash. Rev. Code 65.08.150........................................... 8
Wash. Rev. Code Chapter 65.12 ................................... 7
Wash. Rev. Code 65.12.040........................................... 9
Wash. Rev. Code 65.12.050.......................................... 8, 9
Wash. Rev. Code 65.12.055 ........................................... 10
Wash. Rev. Code 65.12.090 ........................................... 10
Wash. Rev. Code 65.12.110......................................... 11

ix.

Wash. Rev. Code 65.12.140........................................... 8
Wash. Rev. Code 65.12.150........................................... 8
Wash. Rev. Code 65.12.680 ............................................ 8
Wash. Rev. Code 65.12.690 ............................................ 8
Wash. Rev. Code 65.12.700........................................... 8
UNITED STATES COURT RULES
Supreme Court Rule 10(a) .......................................... 44
Supreme Court Rule 10(c) .......................................... 43
WASHINGTON COURT RULES
Washington Rule of Appellette Procedure 2.2(a) .. 27,47
Washington Civil Rule of Procedure 12(h)(3) ...... 31, 36
Washington Civil Rule of Procedure CR 77(c)(7) ....... 39
Washington Civil Rule of Procedure 77(c)(9) ............. 39
OTHER AUTHORITIES

Madison, James, Federalist Paper No. 47 ................. 48
Hamilton, Alexander, Federalist Paper No. 78 ......... 48

1.

OPINIONS BELOW
The decision of the Supreme Court of Washington denying the Singleton’s Motion to modify its
Commissioner's Ruling in Heather Singleton and
Pearl Singleton v. Supreme Court Chief Justice
Mary E. Fairhurst, et. al., Washington Supreme
Court No. 96512-9 is not reported. It is attached as
Petition Appendix 1a. The decision of the Commissioner of the Washington Supreme Court in this case
is not reported and is attached as Petition Appendix
2a.

2.

JURISDICTION
The Washington Supreme Court entered judgment on the issues addressed herein by refusing to
modify its Commissioner’s ruling on May 1, 2019.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).

3.

PETITION FOR WRIT OF CERTIORARI
Petitioners Heather and Pearl Singleton respectfully submit this Petition for a Writ of Certiorari to
review the final decision of the Washington Supreme
Court declining review of its Commissioner’s Ruling
dismissing review of the Chief Justice’s administrative Order authorizing Jeanette Dalton to act as the
pro tem judge in the Singletons’ case until its conclusion.

4.

CONSTITUTIONAL PROVISIONS
INVOLVED
ARTICLE VI, CLAUSE 2 OF THE U.S. CONSTITUTION
STATES:
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the authority of the United States, shall be the supreme
law of the land; and the judges in every state shall
be bound thereby, anything in the Constitution or
laws of any State to the contrary notwithstanding.
U.S. CONST. AMEND. XIV, § 1 STATES IN RELEVANT
PART:
The Fourteenth Amendment to the U.S. Constitution provides in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of
law . . . .

5.

WASHINGTON STATUTORY PROVISIONS
WASH. REV. CODE 2.56.030 (3) provides:
The administrator for the courts shall, under the
supervision and direction of the chief justice:
*
*
*
(3) Make recommendations to the chief justice relating to the assignment of judges where courts are in
need of assistance and carry out the direction of the
chief justice as to the assignments of judges to counties and districts where the courts are in need of assistance;
WASH. REV. CODE 2.56.040 provides:
The chief justice shall consider all recommendations
of the administrator for the assignment of judges,
and, in the discretion of the chief justice, direct any
judge whose calendar, in the judgment of the chief
justice, will permit, to hold court in any county or
district where need therefore exists, to the end that
the courts of this state shall function with maximum
efficiency, and that the work of other courts shall be
equitably distributed. It shall be the duty of every

6.

judge to obey such direction of the chief justice unless excused by the chief justice for sufficient cause.

7.

STATEMENT OF THE CASE
A. Washington has an Optional Public Land Registration System which Vets Ownership of Interests in
Land.
Washington law provides the option of registering interests in land instead of simply recording
them. Compare Ch. 65.12 Wash. Rev. Code and Ch.
65.08 Wash. Rev. Code. The primary difference between “registering” and “recording” of such interests
is that those interests which are registered must be
investigated and certified by county officials known
as the Registrar of Titles and the Examiner of Titles
before they are certificated in each county’s public
registration system.
The certificate of title entered in the county’s
public land registration system for each interest
then serves of proof of the ownership of the specific
land interest which has been allowed to be registered.

8.

Another major difference between registration of
a land interest under each county’s private registration system, and recording under Washington’s general recording system, is that chain of title and other
mistakes made by the Registrar of Titles, the Examiner of Titles, or the county court clerk resulting in
monetary damages creates liability for the county
treasurer to injured registrants and applicants. See
Wash. Rev. Code 65.12.680, 65.12.690, and 65.12.700.
Recording statutes, on the other hand, allow interests in land to be filed without any investigation,
certification, or proof of actual ownership of any
claim to an interest in land. See e.g. Wash. Rev. Code
65.08.050, 65.08.140, and 65.08.150.
Prior to the time Heather Singleton purchased
her home, and up until at least March 30, 2018,
Thurston County did not comply with Washington’s
Torrens private registration statute notwithstanding the County concedes it was required to do so.
Among those officials who refused to comply with
the administrative and ministerial provisions of the
Torrens Act necessary to secure that statute’s implementation in Thurston County were the superior
court judges of Thurston County.

9.

Wash. Rev. Code 65.12.040 provides applications
for land registration “shall be made to the superior
court of the state of Washington in and for the
county wherein the land is situated.” This statutory
provision gives each county superior court “power to
inquire into the condition of the title to and any interest in the land and any lien or encumbrance
thereon” and to “make all orders, judgments and decrees as may be necessary to determine, establish
and declare the title or interest, legal or equitable”
as against “all persons, known, or unknown, and all
liens and incumbrances existing thereon, and to remove all clouds from the title” at the time such interests are offered for registration.
Wash. Rev. Code 65.12.050 requires superior court
judges to establish the rules by which the county
registrar and their deputies shall act. This statute
directs “[a]ll acts performed by registrars and deputy registrars under this law shall be performed under rules and instructions established and given by
the superior court having jurisdiction of the county
in which they act.” Id. Certainly, if the judges do not
establish these rules, the registrars and their deputies cannot follow them.

10.

Wash. Rev. Code 65.12.055 requires that before the
county auditor begins performance of registrar duties he or she will “give a bond with sufficient sureties, to be approved by a judge of the superior court
of the state of Washington in and for his or her
county” in such sum “as shall be fixed by the said
judge of the superior court.” Since the auditor cannot
act as the registrar without a bond, the judges failure to perform their bonding responsibilities under
this statute prevents the auditor from acting as the
registrar.
Wash. Rev. Code 65.12.090 requires superior court
judges to appoint an Examiner of Titles for their
county. “The judges of the superior court in and for
the state of Washington for the counties for which
they were elected or appointed shall appoint a competent attorney in each county to be examiner of titles and legal adviser of the registrar.” Id. This provision also requires superior court judges ensure
every Examiner of Title is properly bonded and
takes the appropriate oath of office. Id. Obviously,
there can be no Examiner of Titles when judges refuse to appoint one who is bonded and takes the appropriate oath of office.

11.

It is undisputed the Thurston County superior
court judges failed to comply with any of the above
ministerial statutory duties until arguably March
30, 2018, when they appointed an Examiner of Titles.
Shortly thereafter Heather Singleton filed an application to register her fee simple interest in her
property. She expected her application would be
promptly considered because Wash. Rev. Code 65.12.110
states in relevant part:
Immediately after the filing of the abstract of
title, the court shall enter an order referring
the application to an examiner of titles, who
shall proceed to examine into the title and
into the truth of the matters set forth in the
application, . . .
B. Heather and her Mother File a Lawsuit
Against Public and Private Defendants
When no report from the Examiner was forthcoming Heather Singleton and her mother Pearl Singleton (both of whom are disabled and live together)

12.

filed a lawsuit against public and private Defendants.
The private Defendants were sued for attempting
to nonjudicially foreclose on their home based on a
forged note and deed of trust. The note and deed of
trust security instrument was alleged to have been
intentionally split from one another by the purported
lender and MERS in such a way that the deed of trust
would not follow the note. The Singletons’ also claimed
MERS 2011 assignment of its interest in the deed
was forged and fraudulent.
The public Defendants, including the Thurston
County superior court judges, were sued for failing
to comply with Washington’s Torrens Act. The Singletons alleged this failure by public officials, including the Thurston County judges, prevented Thurston
County from implementing the land registration system mandated by Wash. Rev. Code Chapter 65.12.
The Singletons alleged the protections provided
by Washington’s Torrens Act would likely have
stopped the repeated foreclosure attempts by the private Defendants to enforce a forged note based on the
assigning of fraudulent documents as early as 2011
when MERS purported to assign its beneficiary

13.

interest in the deed of trust and note to Bank of
America N.A. The Singletons also alleged that if
Heather had been allowed to register her land with
Thurston County’s Torrens system, she would have
been able to challenge her forged note and various
assignments of it, based on facts as they existed at

the time these assignments were filed for registration.
The complaint alleges the reason Heather Singleton could not register her property in Thurston
County’s public registration system from 2006 until
March 30, 2018, is because Thurston County officials
and superior court judges intentionally refused to
comply with the provisions of the Torrens Act necessary for its implementation in Thurston County.
Complaint, ¶¶ 3.109–3.113. Being aware that other
counties were not in compliance with the Torrens
Act, the Singletons asked in ¶ M of the “Requested
Relief” section of their complaint for:
. . . recusal of all superior court judges who
have failed to comply with the provisions of
the Torrens Act or are in a similar position to

14.

these Thurston County judicial defendants;
i.e. their actions have prevented landowners
within their county from availing themselves
of the protections afforded by the system of
registered land title which exists under the
Torrens Act.
Heather and Pearl filed their action in the superior court of Mason County pursuant to Wash. Rev.

Code 36.10.050 to protect themselves from the likely
bias Thurston county superior court judges would
likely have in favor of deciding they and other
Thurston County officials had done nothing wrong
in purposely not following the law necessary to implement the public land registration system in
Thurston County.
C. All the Mason County Superior Court Judicial
Officers Recuse Themselves
Shortly after the complaint was filed with the
Mason County Superior Court, all of that County’s
superior court judicial officers recused themselves.

15.

One because of “familiarity with some of the Defendants” See Judge Goodell’s recusal dated July 17,
2018, (Docket No. 20). Another judge recused himself because of: “Judge’s prior employment involved
legislative work on behalf of several name[d] Defendants and also included legislative advocacy involving the central issue identified in the complaint.” See Judge Cobb’s recusal dated July 18,
2018, (Docket No. 13). The third judge recused herself as a result of “[f]amiliarity with the Thurston
county superior court judges.” See Judge Finlay’s
recusal dated July 24, 2018, (Docket No.: 26). The
Mason County Court Commissioner recused himself
because he was a “[f]riend of a Defendant.” See Commissioner Sauerlender’s recusal dated July 19, 2018,
(Docket No.: 20).
None of the Mason County judicial officers considered in his or her recusal order whether he or she
was required to adjudicate this case under the “rule
of necessity” referenced in Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 825-7 (1986).
D. The Singletons Request Superior Court Judges
who are in the Same Position as are Thurston
County Judicial Defendants to Recuse Themselves

16.

On July 19, 2018, the Singletons filed a motion
for a preliminary injunction to stop the sale of their
home.
On July 20, 2018, the Mason County Superior
Court Administrator notified the Singletons’ attorney that Judge Shelly Speir (then a newly elected
judge for the Pierce County Superior Court) “ha[d]
agreed to hear this case as a visiting judge.” Further,
that “unless arrangements [were] made otherwise,
hearings [would] be held in Pierce County, and the
trial [would] be held in Mason County.”
The Singleton’s attorney responded by email on
July 22, 2018, with copies sent to all defense counsel,
that the same claims which were being made against
the Thurston County superior court judges could be
made against the Pierce County superior court
judges because they also had not complied with the
provisions of the Torrens Act necessary for the implementation of a land registration system in Pierce
County.
The hearing before Judge Speir with regard to
the Singletons’ motion for a preliminary injunction
to stop the sale of their home did not take place. On
August 3, 2018, the administrator of the Mason

17.

County Superior Court sent out a notice to all parties that Judge Speir would hold a status conference
at 1:30 p.m., on August 23, 2018.
The Singletons filed a Motion to Disqualify all
Superior Court Judges in any County that does not
comply with the Torrens Act and/or alternatively, an
Affidavit of Prejudice for Change of Judge on August
22, 2018. This motion stated in its statement of facts
that the Public Officials are being sued because they
refused to comply with the provisions of the Torrens
Act. Further, the motion observed that a purpose of
the Torrens Act is to protect Washington’s real property owners from having their interest(s) in land
taken from them based on fraudulent documents, secret liens, and hidden equities. See e.g. Larse v.
Campbell, 186 Wash. 319, 326, 57 P.2d 1246, 1248
(1936); McMullen & Co. v. Croft, 96 Wash. 275, 280,
164 P. 930, 932 (1917).
The Singletons asserted in this motion to recuse
all superior court judges in the same position as
Thurston county superior court judges with regard
to the performance of their statutory duties that the
Torrens Act required each county judge to take steps
to ensure the appointment of the Registrar of Titles
and Examiner of Titles in their respective counties.

18.

The Singletons asserted these county title officers
were responsible under the land registration act for
investigating and certifying that each parties interest in land were accurate.
The Singletons then went on to observe that at
the same time the Thurston and Pierce County officials were preventing the appointment of these title
officials in these counties, they and others were trying to repeal the Torrens Act. Their point in this
regard was not that these Defendants efforts at repeal were somehow tortious, but that these officials
must have been aware they were violating the law,
or they would not have spent years trying to repeal
it.
The Singletons’ motion asserted that if the public
knew superior court judges were refusing to follow
the law, and by doing so were promoting homelessness in Washington, those judges would likely feel
“the wrath of the people.”
Under these circumstances the Singletons asserted that an appropriate judge could be a retired
State Supreme Court judge, a retired Court of Appeals judge, or a superior court judge from a county
which had an operating Torrens system.

19.

In the Argument section of the motion to recuse
judges, the Singletons argued that “under the Federal Constitution ‘a fair tribunal’ is a basic requirement of due process”, citing cases to that effect. The
Singletons argued a tribunal is not fair when judges
are deciding cases in which they have a direct interest related to litigants in the case or the outcome of
the case. The Singletons also argued “[t]he Federal
Due Process Clause is implemented by objective
standards that do not require proof of actual bias.”
All defense counsel received notice of this motion
requesting the disqualification of superior court
judges who were in the same position of failing to
comply with the Torrens Act as the Thurston County
judicial Defendants, but none of the Defendants has
ever responded to the motion.
Finally, the Singletons argued Pierce County Superior Court Judge Speir was required to recuse herself pursuant to Wash. Rev. Code 4.12.040 and .050
based on the affidavit of prejudice their attorney filed
against her. Judge Speir recused herself pursuant to
Wash. Rev. Code 4.12.050 at the beginning of the status conference. She did not address whether she
should be disqualified under the Due Process Clause.

20.

On October 25, 2018, private Defendants MERS,
U.S. Bank N.A., and Nationstar filed a motion to dismiss. On October 31, 2018, the Singletons filed their
opposition, which argued among other things that
they were entitled to a “fair hearing before a fair tribunal” under the Federal Due Process Clause. “It
should not be up to the same judges who are accused
of violating the law to determine whether they have
done so.”
Defendants MERS, US Bank NA, and Nationstar
filed a Reply to the Singletons’ Opposition on December 3, 2018, approximately thirty-four days after receiving it. Their reply did not address the Singletons’
judicial disqualification and subject-matter jurisdiction defenses under either Washington or U.S. law.
E. The Chief Justice Steps in and Authorizes pro tem
Judge Jeanette Dalton to Adjudicate the Singletons’
Case to its Conclusion and the Singletons Seek Review of the Chief Justice’s Order
The reason the private Defendants did not address this Due Process challenge appears to be that
on October 31, 2018, Washington Supreme Court
Chief Justice Mary Fairhurst authorized Kitsap

21.

County Superior Court Judge Jeanette Dalton to adjudicate the Singletons’ case as a pro tem judge until
its conclusion. The Chief Justice’s Order stated:
[Wash. Rev. Code] RCW 2.56.030 provides
that the Chief Justice shall consider the recommendations of the administrator of courts
for the assignment of judges. The Chief Justice has the discretion to direct any judge
whose calendar will permit to hold court in
any county where the need exists so that the
courts of the state shall function with maximum efficiency.
The administrator for the courts has advised that the Mason County Superior Court
judicial officers are unable to hear the case of
Mason County Superior Court No. 18-200358-23, Singleton, et al. v. West Valley Enterprises, et al., and has recommended the
temporary assignment of Kitsap County Superior Court Judge Jeanette Dalton as a superior court judge for Mason County to hear that
case. The Chief Justice has determined that
the appointment of a temporary judge for Mason County Superior Court is necessary for
the court to function with maximum efficiency.
Now, therefore, it is hereby ORDERED:

22.

That Kitsap County Superior Court Judge
Jeanette Dalton is authorized to perform judicial duties in Mason County Superior Court
regarding Mason County Superior Court No.:
18-2-00358-23, Singleton, et al. v. West Valley
Enterprises, et al. This authorization shall expire on the resolution of that case.
DATED at Olympia, Washington this 31st
day of October, 2018.
Fairhurst, C J.
CHIEF JUSTICE
On November 13, 2018, the Singletons filed a Petition for Writ of Prohibition and/or an Alternative
Writ of Mandamus against the Chief Justice and pro
tem Judge Dalton. They claimed, among other
things, the Chief Justice had no authority to authorize an otherwise disqualified judicial officer from adjudicating their case to its conclusion.
The Singletons sought a writ against Judge Dalton to preclude her from adjudicating the merits of
their case against the Thurston County Superior
Court judges until their challenges to her bias were
“resolved . . . and preserved for appeal.”

23.

The Petition for Writs was accompanied by the
declarations of Micah Anderson and Donovan
McDermott. Each testified that Judge Dalton and
her fellow Kitsap County Superior Court judges
were in the same position as Defendant Thurston
County judges prior to the Thurston County judges
appointment of an Examiner of Titles on March 30,
2018, in failing to comply with the Torrens Act.
F. The Special Proceedings in the Supreme Court
Do Not Cause Pro tem Judge Dalton to Consider
Her Due Process Obligations to the Singletons.
Arguably, the proceedings in Washington’s Supreme Court could have been avoided, or rendered
moot, if pro tem Judge Dalton had recognized that
she was required under the Due Process clause to
substantively address those bias, and appearance of
bias challenges that had been levelled against her.
However, she likely believed she could not do so, and
still be compliant with her legal duty under Wash.
Rev. Code 2.56.040 to adjudicate the Singletons’ case
to its conclusion.

24.

More than two weeks after the Singletons filed
their Writ Petition, and three days before oral argument on private Defendants’ motion to dismiss, the
Singletons filed an affidavit of prejudice against pro
tem Judge Dalton1. In the affidavit Singleton’s attorney testified:
2. I believe the Plaintiffs cannot have a fair
and impartial hearing before Judge Jeanette Dalton by reason of prejudice for the
reasons set forth in the Singletons’ response to the motion to dismiss and the
Petition for Writ of Prohibition presently
pending in the Washington Supreme Court
against Judge Dalton.
3. I believe Judge Dalton to whom this case
has been currently assigned and her judicial
constituents are prejudiced . . . because (1) her
Court . . . has not complied with the administrative provisions of the Torrens Act . . .

1

Wash. Const. art. IV, § 7 requires parties be given an opportunity to disqualify pro tem judges in addition to that which is
allowed pursuant Wash. Rev. Code 4.12.040 and 4.12.050.

25.

On December 10, 2018, pro tem Judge Dalton
heard oral arguments with regard to the Singletons’
affidavit of prejudice and the motion to dismiss filed
by private Defendants MERS, U.S. Bank NA, and
Nationstar at the Kitsap County Courthouse. The
Court first heard oral argument with regard to the
affidavit of prejudice. In addition to the authorities
previously discussed, the Singletons’ attorney argued pro tem Judge Dalton was disqualified from adjudicating this case pursuant to Wash. Rev. Code
2.28.030. This statute states in pertinent part:
A judicial officer is a person authorized to act
as a judge in a court of justice. Such officer
shall not act as such in a court of which he or
she is a member in any of the following cases:
(1) In an action, suit, or proceeding to
which he or she is a party, or in which he
or she is directly interested.
*

*

*

In the cases specified in subsections (3) and
(4) of this section, the disqualification may be
waived by the parties, . . .

26.

Pro tem Judge Dalton incorrectly decided the affidavit was not filed timely and Singletons had to file
a motion, as opposed to a response or affidavit of
prejudice, to disqualify her2. On January 10, 2019,
Judge Dalton filed an Order granting the motion to
dismiss filed by MERS, US Bank NA, and Nationstar without providing any explanation as to why
she had done so, and without considering in this Order any of the grounds advanced by the Singletons
for her disqualification and lack of jurisdiction.
G. The Special Proceedings in Washington’s
Supreme Court Continue.

The Washington Supreme Court has interpreted Wash.
Rev. Code 4.12.050 to allow that an affidavit of prejudice
can be filed at any time before a judge makes a discretionary ruling is timely. See e.g. Bode v. Superior Court, 46
Wash. 2d 860, 285 P.2d 877(1955) which was followed in
Marine Power & Equip. Co. v. State, 102 Wash. 2d 457,
459–66, 687 P.2d 202, 203–07 (1984). As explained in Note
1, Wash. Const. art. IV, § 7 states that parties shall have a
right to file an affidavit of prejudice in cases being adjudicated by a pro tem judge.

27.

Meanwhile, in the Supreme Court the Singletons’
moved to recuse the Chief Justice because she was
interested in upholding her administrative order appointing pro tem Judge Dalton to adjudicate the case
through to its conclusion in order to promote maximum judicial efficiency. After the motion to recuse
was filed the Chief Justice promptly recused herself
before any responses were filed.
The Chief Justice argued, through the Attorney
General, that she was not an inferior court, and
therefore, that she could not be mandated or prohibited from doing anything. The Singletons responded
that in the context of our federal system the Chief
Justice was an inferior judge bound by the words of
the Supremacy Clause to uphold the U.S. Constitution.
Pro tem Judge Dalton, through the Attorney General, argued that the Petition for Writs should be
dismissed because “the Singletons still had a plain,
speedy, and adequate remedy at law by raising any
questions of bias before Judge Dalton, . . .” The Singletons pointed out; however, the Chief Justice’s Order
was an administrative one, which is not appealable
pursuant to Washington’s Rules of Appellate Procedure. See RAP 2.2(a). Further, the Singletons had

28.

raised this issue before pro tem Judge Dalton who
refused to address their challenges.
On February 2, 2019, the Commissioner in his
ruling dismissing the original action accepted the
Chief Justice’s argument that she had the authority
to appoint and direct pro tem Judge Dalton under
Wash. Rev. Code 2.56.030. See Commissioner’s Ruling, Pet. App. p. 8a. The Commissioner also found
the Chief Justice was not an inferior court and therefore could not be reached by way of mandamus or
prohibition. Id. In addition, the Commissioner accepted pro tem Judge Dalton’s argument that the
Singletons’ Due Process challenges against her could
be raised later by way of an appeal of the underlying
case. Id. 2–5.
The Singletons’ moved to modify the Commissioner’s ruling dismissing their original action. Department I of the Washington Supreme Court denied their motion to modify the Commissioner’s Ruling without explanation on May 1, 2019.

29.

H. Judge Dalton Continues to Address the Merits
Without Ever Substantively Addressing Whether
she had the Constitutional Authority to do so.
On March 29, 2019, the State Defendants, which
included Governor Inslee, Attorney General Robert
Ferguson, and all the superior court judges of
Thurston County, moved to dismiss the Singleton’s
case against them. The hearing was noted for May
10, 2019.
The Singletons did not respond to the merits arguments. Instead, they filed pleadings demonstrating that pro tem Judge Dalton did not have subjectmatter jurisdiction to adjudicate their case under
the Due Process Clause and the Washington Supreme Court’s holdings in Nat'l Bank of Wash. v.
McCrillis, 15 Wash. 2d 345, 130 P.2d 901 (1942). In
McCrillis a unanimous Washington Supreme Court
held a pro tem judge who was not appointed in accordance with Wash. Const. art. IV, § 7, did not have
subject-matter jurisdiction to adjudicate that case.
On April 11, 2019, the Singletons filed a “Motion
to Object to Judge Dalton holding court in Kitsap
County” on May 10, 2019. In this motion the Singletons objected, pursuant to Wash. Rev. Code 2.08.190,

30.

to pro tem Judge Dalton holding oral argument
on the motion to dismiss outside of Mason County (1)
without their consent and (2) without having taken
her oath to adjudicate their specific case consistent
with the United States Constitution.
This motion stated: “The Singletons expressly do
not consent to any hearing in this Mason County Superior Court case being held in Kitsap County by a
judge who has not subscribed an oath to uphold the
United States Constitution and the Washington
Constitution in their specific case as is required by
[Wash. Rev. Code] RCW 2.08.180.”
Wash. Rev. Code 2.08.180 states in pertinent part:
A judge pro tempore shall, before entering
upon his or her duties in any cause, take and
subscribe the following oath or affirmation:
“I do solemnly swear (or affirm, as the case
may be,) that I will support the Constitution of
the United States and the Constitution of the
State of Washington, and that I will faithfully
discharge the duties of the office of judge pro
tempore in the cause wherein . . . is plaintiff
and . . . defendant, according to the best of my
ability.”

31.

(Emphasis Supplied)
On May 10, 2019, pro tem Judge Dalton, without
ruling on Singletons’ April 11, 2019, motion held oral
argument in the Kitsap County superior courthouse
rather than the Mason County superior courthouse.
The Singletons’ attorney was unable to attend in
person, so he appeared telephonically. During oral
argument pro tem Judge Dalton indicated she had
extrajudicial knowledge about the issues being litigated under the Torrens Act. See May 10, 2019, Ver.
Rep. 2, pp. 58:9–11. Pro tem Judge Dalton chastised
the Singletons’ attorney for challenging subject-matter jurisdiction and not addressing the merits, even
though Wash. Rev. Code 2.28.030 and Washington
Rule of Civil Procedure 12(h)(3) both provide the
Singletons’ challenges to Dalton’s subject-matter jurisdiction could not be waived and need only be “suggested” to the court and to the Defendants3.

3

Washington’s superior courts are courts of general jurisdiction, which unlike federal courts, are presumed to have subjectmatter jurisdiction unless it is expressly denied them. See

32.

Notwithstanding the issue of judicial bias had
been raised in Singletons’ initial complaint and in
virtually all their following pleadings, pro tem Judge
Dalton sua sponte determined that the state Defendants, i.e. the Governor, the Attorney General, and
Thurston County superior court judges, did not have
sufficient notice of these challenges to satisfy Federal Due Process.
Judge Dalton also insisted that the special proceedings against her personally in the Washington
Supreme Court were final and could not amount to
a conflict of interest on May 10, 2019, notwithstanding the Singletons’ counsel indicated he would be filing a petition for review with the United States Supreme Court.

In re Marriage of Major, 71 Wash. App. 531, 536, 859 P.2d 1262
(1993); State ex rel. Martin v. Superior Court, 101 Wash. 81, 94,
172 P. 257 (1918). It is the Singletons’ position that judicial officers who do not comply with Federal Due Process requirements in specific cases are expressly denied subject matter jurisdiction over such cases under Washington law. Id.

33.

MR. STAFNE. … I would further note [Wash.
Rev. Code] RCW 2.28.030 provides that the
Singletons’ challenges to your being a party to
these proceedings and having an -- an interest
in this case cannot be waived, and you cannot
force them to do so by decreeing you have the
power to break the law. Judge Dalton, you are
a respondent in the Singleton’s writ action
against you, and the chief justice, with regard
to this case.
THE COURT: That’s been dismissed.
MR. STAFNE: And you know from the documents filed in the Supreme Court.
THE COURT: The writ action has been
dismissed.
MR. STAFNE: … As noted in their briefing, the Singletons will seek review of that decision before the United States [Supreme
Court] within 60 to 90 days, . . .
Now, I’m sure you recall, you’re represented by Attorney General Ferguson against
Singletons in those Supreme Court proceedings. And by that I mean, Attorney General

34.

Ferguson acted as your attorney in those proceedings which are still ongoing.
THE COURT: They aren’t ongoing.
MR STAFNE. And I am sure you appreciate
-THE COURT: They aren’t ongoing, Mr.
Stafne.
MR. STAFNE: They are. Because we’re filing
to -- with the United States Supreme Court,
...
*

*

*

THE COURT: There’s no ongoing action.
MR. STAFNE: But -- and I’m sure you appreciate that the Attorney General is a Defendant in this case, in which you are purporting
to act as a Pro Tem Superior Court Judge of
Mason County.
THE COURT: Mr. Stafne, when did you file
your petition for cert at the U.S. Supreme
Court level.

35.

MR. STAFNE: I don’t have to for 90 days
for cert, 60 days for mandamus or prohibition.
THE COURT: Then this action is dismissed. There is no other court that has taken
up this action, so therefore your allegations
are without merit.
Verbatim Report of Proceedings pp. 47–49
The Court’s minutes of this hearing reflect when
the Singletons’ attorney told pro tem Judge Dalton
the Singletons intended to seek review of the Washington Supreme Court decision in U.S. Supreme
Court she stated such comments were contemptuous. “Mr. Stafne intends to file Cert w/ Supreme
Court. Court warns Mr. Stafne’s comments contemptuous.” Minutes, p. 1.
After the Singletons’ attorney was removed from
the proceedings through manipulation of the telephone connection, pro tem Judge Dalton started to
berate him, advising Ms. Singleton “[t]here are a
number of attorneys around the country who specialize in defending against foreclosures…” Pro tem
Judge Dalton then explained to Heather Singleton,

36.

and her disability advocate, without Singletons attorney being available to her, that the Singletons attorney had violated the Due Process rights of the Defendants by challenging her authority to act as an
adjudicator in their case and that his arguments regarding her disqualification were specious.
With regard to the purported violation of the Defendants’ rights to due process the pro tem Judge
told Ms. Singleton:
THE COURT: … He [Mr. Stafne] doesn’t have
the right to ignore due process, which is a constitutional mandate, in terms of noting up an
issue and allowing the other side to have an
opportunity for being notified and for –
(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]
THE COURT: -- Having an opportunity to
respond. That’s constitutional. Rule 12 (b)(8)4

4

The pro tem Judge or the court reporter apparently heard the
wrong citation as the civil rule being referred to is CR 12(h)(3),
which states:

37.

has to do with allowing an individual to raise
the issue of subject-matter jurisdiction at any
time during the proceeding. But it doesn’t imply, nor does it say, that by the way you get to
ignore the first 11 rules of civil procedure by
bringing a motion without notice, and without
properly raising it first in the courtroom.
There is no case under 12(b)(8), under the
rule of pleading, under the rules of stating a
complaint or stating a claim, that allows an
individual to sua sponte, on their own, bring
a motion in front of a court while it is allegedly
camouflaged -(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]
THE COURT: -- in a response. That is not
appropriate. And it’s a violation of the other

Whenever it appears by suggestion of the parties or
otherwise that the court lacks jurisdiction of the subject-matter, the court shall dismiss the action.

38.

side’s constitutional due process right to have
an opportunity to be notified and to respond.
Verbatim Report of Proceedings pp. 53–54
Pro tem Judge Dalton then told Ms. Singleton
her attorney’s arguments that she could not adjudicate this case under the Due Process Clause and
Washington law, were “specious” because she had
the discretion to be a judge in any matter, in any
county, anywhere in the state.
THE COURT: … Mr. Stafne also speciously argues to this Court that the challenge
to this Court’s legal authority to sit as a judicial officer in this court is a matter which,
quote, still pending -- or, quote, still under review. That is absolutely not the case. The action that was brought at the State Supreme
Court was brought in inappropriately under a
plea -(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]
THE COURT: -- for a writ of prohibition
from the State Supreme Court. The State Supreme Court, that is an improper forum to

39.

bringing such a motion, to raise a subjectmatter jurisdiction motion about this judicial
officer; who does have by the way, discretion
throughout the State to sit in any matter, in
any county, in the superior court in this
state5.
Verbatim Report of Proceedings pp. 54–55
Pro tem Judge Dalton then explained to Ms. Singleton that she did not need the Chief Justice to appoint her to act as a Mason County superior court
judge.
THE COURT: -- the Justice does not have to
appoint me as a pro tem in Mason County for

5

The Singletons assert this is a misstatement of law of Washington law. Under Wash. Const. IV, § 7 a superior court judge
of one county can serve as a pro tem judge of another county
only when requested to do so by a judge of the county where
help is needed or at the request of the Governor of Washington.
Additionally, superior court judges must take an oath to uphold
the United States Constitution in that specific case before they
begin pro tem adjudication duties. See Wash. Rev. Code 2.08.180,
See also CR 77(c)(7). Additionally, such judges are required to
hold hearings in the county in which they are visiting. See
Wash. Rev. Code 2.08.190 See also CR 77(c)(9).

40.

me to go down to Mason County and act as a
judicial officer there. Mason
County and Pierce County, Mason County
and Kitsap County -(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]
THE COURT: -- often utilize the services
of neighboring superior court judges when
they are low, when they need to have a matter
heard and they don’t have enough judges.
There are judge trades, when a judge can’t
hear a case in Mason County, we do judge
trades. I go to Mason County and hear the
matter, Mason County Superior Court judge
comes here and hears the matter.
There is no -- Mr. Stafne has no standing to
argue that any Superior Court judge elected
in this state cannot appear and adjudicate
matters in any county dually in this state.
(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]

41.

THE COURT: Under the Constitution of
Washington State I have jurisdiction over any
matter, in any superior court, in any county of
the state6. And the -- the Justice of the Supreme Court does not have to appoint me to
act in Spokane if I go to Spokane and they
want me to sit in. So Mr. Stafne’s argument
or challenge is without merit with respect to
whether this particular judge, or as he says
any judge in the state, can or cannot hear a
matter that involves real property -(Phone Ringing.)
[Singletons’ attorney trying to get back into
the hearing]

6

The Singletons assert this is another misstatement of law.
See note 4.

42.

THE COURT: -- in any county of this state.
He’s going to have to find a constitutional provision that we don’t know about right now7.
So that is not an argument which holds sway.
Verbatim Report of Proceedings pp. 55–56
On May 28, 2019, the Singletons filed a motion to
reconsider the dismissal of the State Defendants denial of their motion to dismiss for lack of subjectmatter jurisdiction and constitutional disqualification. Pro tem judge Dalton has never ruled on that
motion.

The Singletons assert the Constitutional provision which
prohibits superior judges in one county from arbitrarily adjudicating cases in other counties is Wash. Const. art. IV, § 7.
See infra.
7

43.

ARGUMENT
REASONS FOR GRANTING THE PETITION
A. The Washington Supreme Court Held Wash.
Rev. Code 25.30.030(3) is Superior to the Singletons’
Rights to Due Process.
This Court should grant certiorari because the
apparent purpose of the Chief Justice’s Order pursuant to Wash. Rev. Code 2.56.030(3) was to authorize
pro tem Judge Dalton to adjudicate the merits of the
Singletons’ case pursuant to Wash. Rev. Code 2.56.040
without having to comply with this Court’s objective
Due Process precedents. Thus, this case involves a
final decree where the validity of these state statutes
are being drawn into question by the Singletons on
the grounds they are repugnant to the provisions of
the United States Constitution. See 28 U.S.C. §
1257; Supreme Court Rule 10(c). See also Camara v.
Municipal Court of San Francisco, 387 U.S. 523, 87
S.Ct. 1727, 18 L.Ed. 930 (1967).
In Camara this Court granted review to overturn
California state courts’ denial of a writ of prohibition

44.

against a municipal court from enforcing a penalty
for refusing to allow an administrative search without a warrant in violation of the Fourth Amendment.
A unanimous Court observed: “[a]ppellant properly
raised and had considered by the California courts
the federal constitutional questions he now presents
to this Court.” Id. at 387 U.S. at 525. This is the
same situation we have here. The Singletons raised
their constitutional challenges to these statutes and
the Washington Supreme Court denied them in a
procedural order which applied these statutes as if
they were constitutional. This situation is also similar to what occurred in Rippo v. Barker, __U.S.__, __,
137 S.Ct. 905, 906-07 (2017) (Nevada Supreme
Court applied the wrong legal standard to determine
whether trial judge must be disqualified under this
courts objective due process precedent.) Cf. Supreme
Court Rule 10(a) (The Washington Supreme Court
has decided an important federal question in a way
that conflicts with the objectives Due Process precedents of this Court.)
B. The Singletons’ Due Process Rights Have Been
Sacrificed to Washington’s Interests in Maximizing
Judicial Efficiency

45.

The Washington Supreme Court has no authority to allow its Chief Justice to authorize a state superior court judge to adjudicate a case to its conclusion if doing so will violate a state litigant's rights to
Due Process under the Fourteenth Amendment.
There is not a case directly on point in this regard
because no one would consider such a result permissible under the Supremacy Clause: “a general constitutional rule already identified in decisional law
may apply with obvious clarity to the specific conduct in question, even though ‘the very act in question has [not] previously been held unlawful.’”
United States v. Lanier, 520 U.S. 259, 271 (1997) (citation omitted). Indeed, “the easiest cases don’t even
arise.” Id.
This is one of those easy cases. The Chief Justice
of the Washington Supreme Court did not have, and
could not be given, by the State of Washington under
our federal structure of government the authority to
authorize a pro tem judge to adjudicate the Singletons’ case to its conclusion if the Due Process Clause,
as interpreted by this Court, disqualified that pro
tem judge from doing so. See. Under United States v.
Bond, 564 U.S. 211, 1315 S. Ct. 135 (2011)(“By denying any one government complete jurisdiction over

46.

all concerns of public life federalism protects the liberty of the people from arbitrary power.”)
What the Chief Justice and the Washington Supreme Court have done is to substitute Wash. Rev.
Code 2.56.030, a state statute which is designed to
promote Washington’s judicial efficiency, for the centuries old “rule of necessity,” which requires judges
consider their own disqualifications in a case or controversy pursuant to applicable law and precedents
when necessary. See United States v. Will, 449 U.S.
200, 101 S. Ct. 471 (1980).
While it is true that Wash. Rev. Code 2.56.040
imposes a duty on pro tem Dalton to comply with the
direction of the Chief Justice to adjudicate the Singletons’ case until its conclusion, the Supremacy
Clause requires Dalton to ignore this statute to the
extent it conflicts with this Court’s precedents construing the meaning of the Due Process Clause that
protects litigants from the exercise of arbitrary
power in state courts.
C. The Washington Supreme Court Failed to
Consider the Courts Objective Due Process Precedents.

47.

The Commissioner and the Supreme Court of
Washington avoided considering and applying the
pertinent, well-settled Due Process precedent protecting the people of Washington against biased and
likely to be biased state judges by holding (1) the
Chief Justice was not an inferior court, and (2) the
Chief Justice’s Order could be appealed. These procedural rulings appear to be and are pretextual. The
Chief Justice is a judge of the State of Washington
who must comply with the Supremacy clause. There
can be no appeal of the Chief Justices order because
it is not a final order of a superior court See RAP
2.2(a).
This nation’s founders did not authorize judges to
put the efficiencies of courts and judges over the liberties of the people. The very purpose of the structure of our government is to preserve the lives and
liberties of the governed. See e.g. James Madison,
Federalist Papers No. 47, “The Particular Structure
of the New Government and the Distribution of

48.

Power Among Its Different Parts (1788)8; Alexander
Hamilton, Federalist Paper 78 “The Judiciary” 9
The harm of giving Washington State courts the
authority to overstep the Singletons’ Due Process
rights has continued, and continues unabated, because the pro tem judge purposely refuses to exercise
her JUDGMENT under law to resolve the disqualification issues before her; instead, exercising her
WILL that she be allowed to adjudicate the merits of
this case through to its conclusion because it might
otherwise put Washington’s judges (who are elected)
into a negative light.
D. The Totality of the Circumstances Demonstrate
the Probability of Bias by Pro tem Judge Dalton is
“too High to be Constitutionally Tolerable.”

Last accessed at https://www.congress.gov/resources/display/content/The+Federalist+Papers#TheFederalistPapers-47
on July 28, 2019.
9 Last accessed at https://www.congress.gov/resources/display/content/The+Federalist+Papers#TheFederalistPapers-78
on July 28 2019.
8

49.

The Chief Justice’s unconstitutional Order based
on Wash. Rev. Code 2.56.030(3) purporting to authorize the violation of the Singletons’ constitutional
rights is a major factor in the totality of circumstances establishing the likelihood of pro tem Judge
Dalton’s bias in this case. This is because under
Washington law pro tem Judge Dalton is required to
follow the Chief Justice’s direction. See Wash. Rev.
Code 2.56.040 (“... It shall be the duty of every judge
to obey such direction of the chief justice unless excused by the chief justice for sufficient cause.”) The
record of these various proceedings demonstrates
pro tem Judge Dalton never requested to be relieved
of the Chief Justice’s direction to adjudicate the case
on its merits. Nor has the Chief Justice ever cancelled this direction.
Although state courts and judges often decide
otherwise, it’s a fact that this Court has long held
the “Due Process Clause entitles a person to an impartial and disinterested tribunal in both civil and
criminal cases.” Marshall v. Jerrico, Inc., 446 U.S. 238,
242 (1980); accord In re Murchison 349 U.S.133, 136
(1955), (“A fair trial in a fair tribunal is a basic requirement of due process.”).

50.

This requirement of neutrality in adjudicative
proceedings safeguards the two critical concerns of procedural due process, the prevention of unjustified or mistaken deprivations
and the promotion of participation and dialogue by affected individuals in the decisionmaking process. The neutrality requirement helps to guarantee that life, liberty, or
property will not be taken on the basis of an
erroneous or distorted conception of the facts
or the law.
Marshall, 446 U.S. at 242 (internal citations omitted) An individual, this Court wrote, must be assured “that the arbiter is not predisposed to find
against him.” Id.
This due process right “has been jealously
guarded by this Court” because it “preserves both
the appearance and reality of fairness, generating
the feeling, so important to a popular government,
that justice has been done.” Id. (citation and internal
quotation marks omitted).
A “fair and impartial tribunal” guaranteed by the
Fourteenth Amendment requires not just “an absence of actual bias” -- there must not be “even the
probability of unfairness” and “justice must satisfy
the appearance of justice.,” Murchison, 349 U.S. at

51.

135-36) quoting Offut v. United States, 348 U.S. 11,
14. (1954).
As this Court stated in Caperton v. Massey Coal.,
556 U.S. 868, 129 S. Ct. 2252 (2009): “Under our
precedents there are objective standards that require recusal when ‘the probability of actual bias on
the part of the judge or decisonmaker is too high to
be constitutionally tolerable.’” Id. at 872 (quoting
Withrow v. Larkin, 421 U.S. at 47.)
All too often state courts ignore this Court’s precedent in this regard; State judges simply declaring
they are not actually biased. See e.g. Rippo v. Baker,
137 S. Ct. 905, 907 (2017); Williams v. Pennsylvania,
579 U. S. ___, ___, 136 S. Ct. 1899 (2016) and Caperton v. A. T. Massey Coal Co., supra. And a similar
phenomenon appears to be going on here as pro tem
Judge Dalton refuses to address the Due Process
challenges before her as if the Chief Justice and
Wash. Rev. Code 2.56.030(3) and 2.56.040 actually
can, and have excused her of this judicial responsibility.
In addition to the Chief Justice’s order authorizing pro tem Judge Dalton to adjudicate this case to
its conclusion, there are also other circumstances

52.

suggesting that the average judge in Dalton’s position would likely be biased in this case both with regard to her fellow judicial litigants and the outcome
of this case.
Such circumstances include, but are not limited
to: (1) the fact that all the judges of the Mason
County superior court recused themselves because
of their relationships with the Thurston County
judges, or because of their involvement in trying to
repeal the Torrens Act; (2) against this backdrop the
Chief Justice authorized pro tem Judge Dalton to adjudicate the Singleton’s case to its conclusion; (3) the
Chief Justice has never indicated the intent of her
administrative order was not to relieve pro tem
Judge Dalton of her responsibilities under the Due
Process Clause; (4) pro tem Dalton has never filed an
oath swearing to uphold the U.S. Constitution when
adjudicating the Singleton’s case; (5) pro tem Judge
Dalton appears to have interpreted the Chief Justice’s order as allowing her to avoid considering her
recusal responsibilities because she has never addressed them in a written order notwithstanding she
is in the same position as are the Thurston County’s
judicial Defendants and she is a named respondent
in these proceedings.

53.

And finally, it cannot be ignored that pro tem
Judge Dalton told Heather Singleton straight out in
court that she did not have to be appointed by the
Chief Justice to be a pro tem judge in this case. If
that is true, then the only purpose for the Chief Justice’s Order would appear to be, to direct pro tem
Dalton to ignore judicial disqualification challenges
in order to promote maximum efficiency and protect
other judge’s conduct from a jury’s scrutiny.
E. Pro tem Judge Dalton’s Conduct Toward the Singletons and Their Attorney Indicates Probable Bias.
In this case there is abundant evidence that pro
tem Judge Dalton is biased in favor of her fellow
judges and their positions in this case. For example,
pro tem Judge Dalton orally refused to consider arguments relating to bias based on her view that Defendants did not have adequate notice of them. But
the case docket demonstrates the Singletons first
made their request for recusal against judges who
were in a similar position with regard to defendant
Thurston County judges in their complaint.

54.

The Singletons continued to ask for recusal on
the same grounds in virtually all of their subsequent
pleadings.
Accordingly, the argument the private and public
Defendants never had notice of these recusal arguments rings hollow—especially since the only one
who ever made them was pro tem Judge Dalton—
not the Defendants. This is significant because it is
not generally appropriate for a judge, in an adversary system like ours, to sua sponte raise defenses
for one set of litigants, while ignoring her own duties
to consider subject-matter jurisdiction and bias issues sua sponte.
The pro tem judge has also refused to address
whether the state constitution, or state statutes, or
state court rules prohibited her from deciding this
case notwithstanding the Chief Justice’s Order.
Other obvious examples of pro tem Judge Dalton’s actual bias occurred during the May 10, 2019,
hearing on the State Defendants motion to dismiss
when she ordered the Singletons’ attorney be moved
from the hearing and refused to let him return until
the proceedings were over. While Ms. Singleton was
unrepresented before her pro tem Judge Dalton advised that Singletons’ lawyer’s arguments regarding

55.

disqualification were specious and erroneous. Further, that other foreclosure lawyers were available
throughout the country to represent the Singletons.
This is not appropriate conduct for a state court
judge under our adversarial system of justice.
While this Court often prefers immunity to accountability for judges this case presents a good vehicle for exploring those circumstance where judicial
accountability is necessary to ensure justice and the
appearance of justice.
The Thurston County judiciary decided to legislate from the bench when all its judges refused to
perform those ministerial duties necessary to establish a private land registration system in that
County, as did pro tem Judge Dalton and the Kitsap
County Superior Court.
With respect, the Singletons contend the totality
of the evidence demonstrates pro tem Judge Dalton
has become so embroiled in this case that her conduct is no longer that of a neutral adjudicator.

56.

CONCLUSION
For the foregoing reasons, Heather and Pearl
Singleton respectfully request this Court grant their
petition for writ of certiorari and reverse the judgment of the Washington Supreme Court. Alternatively, this Court should grant certiorari, vacate the
decision of the Washington Supreme Court, and remand for review pursuant to this Court’s objective
Due Process precedents.

DATED this 30th day of July, 2019.

___________________________
SCOTT E. STAFNE WSBA #6964
Counsel of Record
STAFNE LAW Advocacy & Consulting
239 N. Olympic Avenue
Arlington, WA 98223
(360) 403-8700
Scott@StafneLaw.com

App. 1a

APPENDIX A
THE SUPREME COURT OF WASHINGTON
HEATHER and PEARL
SINGLETON,
Petitioners,
v.
SUPREME COURT CHIEF
JUSTICE MARY E.
FAIRHURST, et al.,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 96512-9
ORDER

Department I of the Court, composed of
Chief Justice Fairhurst (Chief Justice Fairhurst
recused and Justice Stephens sat for Chief Justice
Fairhurst), and Justices Johnson, Owens, Wiggins
and Gordon McCloud, considered this matter at its
April 30, 2019, Motion Calendar and unanimously
agreed that the following order be entered.
IT IS ORDERED:

App. 2a

That the Petitioners’ motion to modify the Commissioner’s ruling is denied.
DATED at Olympia, Washington, this 1st day of
May, 2019.
For the Court
s/ Johnson
Associate Chief Justice

App. 3a

APPENDIX B
IN THE SUPREME COURT OF
THE STATE OF WASHINGTON
HEATHER and PEARL
SINGLETON,
Petitioners,

No. 96512-9
RULING DISMISSING
ORIGINAL ACTION

v.
SUPREME COURT
CHIEF JUSTICE MARY
E. FAIRHURST, et al.,
Respondents.

Petitioners Heather and Pearl Singleton, invoking the original jurisdiction of this court under article IV, section 4 of the Washington Constitution, and
apparently relying also on chapter 7.16 RCW, filed
an original action in this court seeking a writ of prohibition or mandamus against respondents, Chief
Justice Mary Fairhurst and Kitsap County Superior
Court Judge Jeanette Dalton. They request specifically an order invalidating the Chief Justice’s ap-

App. 4a
pointment of Judge Dalton to preside over a civil action petitioners filed against a wide array of defendants under Mason County Superior Court cause
number 18-2-00358-23. Because petitioners fail to
show that the Chief Justice and Judge Dalton are
subject to prohibition or mandamus in connection
with the underlying action, the original action is dismissed for reasons explained more fully below. RAP
16.2.
The following facts appear to be undisputed.
Heather Singleton is the daughter of Pearl Singleton. Heather purchased real property in Thurston
County, financing the transaction by means of one
or more loans secured by mortgage or deed of trust.
Petitioners defaulted on the loan some years ago.
The creditors initiated nonjudicial foreclosure proceedings that appear to be pending.
In an apparent attempt to derail the nonjudicial
foreclosure matter, petitioners filed the above-described superior court action, naming as defendants
the creditor entities, Thurston County, the Thurston
County auditor, every Thurston County Superior
Court judge, the Thurston County Superior Court
clerk, the Thurston County prosecutor, the attorney
general, and the governor. As to the various government defendants, petitioners apparently alleged

App. 5a
that the nonjudicial foreclosure proceedings were invalid because title to the real property was not registered under the Torrens Act, chapter 65.12 RCW.
The Torrens Act is a seldom used statute originally
enacted in 1907. The act has apparently fallen into
disuse as a result of the practicality and efficiency of
modern title recording systems, including the use of
title companies. Petitioners allege that all or most
counties in Washington, including Thurston County,
do not comply with the Torrens Act.
As indicated, petitioners filed their action in Mason County Superior Court. All superior court judges
in that county recused for various reasons. A Pierce
County judge was appointed to preside over the matter but recused after petitioners filed an affidavit of
prejudice. The Chief Justice eventually accepted a
recommendation by the administrator of the courts
to appoint Judge Dalton, who was recently elected to
the Kitsap County Superior Court, to preside over
the matter. See RCW 2.56.030(3) (administrator for
the courts may recommend to the Chief Justice the
appointment of judge to a county in need of assistance).
Petitioners then filed the instant original action
in this court. Respondents separately urge this court

App. 6a
to dismiss the action. The parties argued their relative positions in a teleconference hearing on February 14, 2019. Now before me is whether to retain the
petition for a decision on the merits in this court,
transfer it to a superior court for further proceedings, or dismiss it. RAP 16.2(d).
Under article IV, section 4 of the Washington
Constitution, this court has original jurisdiction to
issue extraordinary writs, including writs of mandamus and prohibition. Kreidler v. Eikenberry, 111
Wn.2d 828, 838,766 P.2d 438 (1989). A writ of prohibition “arrests the proceedings of any tribunal, corporation, board or person, when such proceedings
are without or in excess of the jurisdiction” of such
entity. RCW 7.16.290. Issuance of a writ of prohibition is a drastic measure, to be used only when there
is (1) absence or excess of jurisdiction, and (2) absence of a plain, speedy, and adequate remedy in the
ordinary course of law. RCW 7.16.300; Commanda
v. Cary, 143 Wn.2d 651,655, 23 P.3d 1086 (2001);
Kreidler, 111 Wn.2d at 838. The absence of either
one precludes the issuance of the writ. Kreidler, 111
Wn.2d at 838. A remedy is not inadequate merely
because it causes delay, expense, or annoyance; instead, there must be something in the nature of the
action that makes it apparent that the petitioner’s
rights will not be protected without issuance of the
writ. City of Kirkland v. Ellis, 82 Wn. App. 819, 827,
920 P.2d 206 (1996).
A counterpart to prohibition, mandamus will lie

App. 7a
to compel a court to act on a matter if it clearly appears the court has been properly moved to take action and has unjustifiably refused. State v. Hunter,
4 Wash. 651, 652, 30 P. 642, 32 P. 294 (1892). Stated
another way, this court may issue a writ of mandamus to compel a state officer to perform a nondiscretionary act that the law clearly requires as part of
the official’s duties. Cmty. Care Coal. of Wash. v.
Reed, 165 Wn.2d 606, 614, 200 P.3d 701 (2009). A
mandatory duty exists when a constitutional provision or statute directs a state officer to take some
course of action. Brown v. Owen, 165 Wn.2d 706,
724, 206 P.3d 310 (2009). The mandate must define
the duty with such particularity as to leave nothing
to the exercise of discretion or judgment. Freeman v.
Gregoire, 171 Wn.2d 316, 323, 256 P.3d 264 (2011).
Thus, mandamus is not proper to compel a discretionary act. In re Pers. Restraint of Dyer, 143 Wn.2d
384, 398, 20 P.3d 907 ( 2001). Moreover, like prohibition, mandamus is an extraordinary remedy, permitted only where there exists no plain, speedy, or
adequate remedy at law. State ex rel. Ass’n of Wash.
Indus. v. Johnson, 56 Wn.2d 407, 410, 353 P.2d 881
(1960). As previously stated with respect to prohibition, a remedy is not inadequate merely because

App. 8a
it causes delay, expense, or annoyance. City of Kirkland, 82 Wash. App. at 827.
The statutory writs of mandamus and prohibition
apply solely to inferior courts. RCW 7.16.160 (mandamus), .300. Correspondingly, a petition for writ of
prohibition, and by implication a petition for writ of
mandamus, filed directly in this court as an original
action under the court’s constitutional jurisdiction is
available only as it applies to an inferior court. Johnson v. Pate, 54 Wn.2d 148, 149, 338 P.2d 131 (1959).
These authorities teach that this court may not issue
a writ against itself or its Chief Justice.
Even if this court could issue a writ of mandamus
or prohibition directed to the Chief Justice (who
would necessarily be recused from the matter), petitioners fail to show that the Chief Justice failed to
carry out a nondiscretionary duty or that she acted
outside the court’s jurisdiction. To the contrary, the
Chief Justice has discretion whether to accept a recommendation to appoint a superior court judge to a
county in need of assistance. See RCW 2.56.030(3).
Petitioners argue that the Chief Justice has no discretion to appoint a judge who will, in petitioners’
view, violate their due process rights by being biased. But that argument ignores the discretionary

App. 9a
nature of the Chief Justice’s decision whether to accept the recommendation to appoint the judge.
Furthermore, petitioners do not show that they
are without a plain, speedy, and adequate remedy in
the ordinary course of law. City of Kirkland, 82 Wn.
App. at 827. The heart of their argument is that
Judge Dalton will not be a fair and neutral adjudicator. That is a position petitioners can argue on appeal if they are dissatisfied with the result of the proceedings in the superior court.
Turning to Judge Dalton, a petition for writ of
mandamus or prohibition can be lodged against her
in appropriate circumstances, but petitioners’ claims
in this instance necessarily fail because of the availability of the potentially adequate remedy of an appeal, as discussed above. Id.
Petitioners’ original action is fatally flawed on
these threshold requirements and borders on frivolous; therefore, it would not be an effective use of judicial resources to refer it to the court for further
consideration or transfer the petition to the superior
court for a decision on the merits. The original action
is dismissed. RAP 16.2(d).
s/ Michael Johnston
COMMISSIONER
February 20, 2019

App. 10a
APPENDIX C
THE SUPREME COURT OF WASHINGTON
HEATHER and PEARL
SINGLETON,
Petitioners,
v.
SUPREME COURT CHIEF
JUSTICE MARY E.
FAIRHURST, et al.,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

CERTIFICATE OF
FINALITY

No. 96512-9

On February 20, 2019, the Supreme Court Commissioner entered a ruling dismissing the original
action. Department One of the Court (Chief Justice
Fairhurst recused and Justice Debra Stephens sat
for Chief Justice Fairhurst) considered the Petitioner’s “Amended Motion to Modify Commissioners
Ruling Dismissing Original Action Pursuant to RAP
17.7” and entered an order denying the motion to
modify on May 1, 2019. Therefore, the Commissioner’s ruling dismissing the matter is now final.

App. 11a
IN TESTIMONY WHEREOF, I have
hereunto set my hand and affixed the
seal of this Court at Olympia, Washington, the 21st day of May, 2019.
s/ Susan L. Carlson
SUSAN L. CARLSON
Clerk of the Supreme Court
State of Washington
Page 2
Certificate of Finality
96512-9

cc:

Scott Erik Stafne
Paul Michael Crisalli
Stuart Shea Nickum
Hon. Robert W. Ferguson
Reporter of Decisions

